«

-123IN THE SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

OF NORTH AMERICA
case#

Jp-.'Vi
tl

JUL 1 S 2020
OFFICE OF THE CLERK

Eric Emanuel Taylor (s.s.n. # xxx-xx-4343)/Petitioner
V,
/\
Not Versus

%

President Donald Trump et al./Proponents

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF COLUMBIA

PETITION FOR WRIT OF CERTIORARI

Eric Taylor (s.s.n.# xxx-xx-4342)
933 Broad Street #P.O. Box 7182
Portsmouth, Virginia 23707
(757)582-6883

RECEIVED
JUL 2 8 2020

QUESTIONS
1) Whether or not it being due-process of law and equity for this appeal to issue forth in
this court pursuant rule 11 of this court pursuant the due-process of both the 5th and
14th amendments, on grounds of the jural interest that being 5 U S.C. section 3331
being a law that abridging my entitlement of double-jeopardy-clause-protection, while
U.S. District Court Judge Emmet G Sullivan's judgement of civil-action # 20-MC-00001
enforcing the jural interest that being 5 U.C.S. section 3331 at congruencey of Article 1section 8-clause 9's applicability?
2) Whether or not the lack of the issuance of due-process-clause-entitlements at
regards of the United States guaranteeing protection against the deprivation of doublejeopardy-clause-entitlement in the U.S. District Court without having to appeal such civilaction to the Supreme Court of the U.S. pursuant rule 11 of this court, being grounds for
the awarding of compensatory damages as relief against the mental anguish sustained
against my good-faith of civil-action's application in the U.S. District Court?Court? (see 5
U.S.C. section 3331 's stating)
3) Whether or not the applicabilty of the assertion of 28 U.S.C. section 1343a3 and
1343a4 being the subject-matter jurisdiction of the jurisdictional-statement of 28 U.S.C.
section 1331 's application, allow I who being Eric Taylor (s.s.n.#xxx-xx-4342) to practice
under the authority of the law office of United States District Court For The District Of
Columbia Judge Emmet G Sullivan in the United-States-District-Court-For-The-DistrictOf-Columbia's practicability of the issuance of remedy against the tort of personal injury
of mental anguish caused by the negligence of the United-States-Congress's
constituting tribunal contrary the allegiance of the authenticity of rule 45 of the rules of
the Supreme Court of the United States, if I accomplish receiving a diploma of Legal
Office Assistant? (see Article ll-section 2-clause 2's and Article ll-section 3's and 3 U.S.C.
section 302's stating)
4) Whether or not the authority of the law office of United States District Court For The
District Of Columbia Judge Emmet G Sullivan deprived I who being Eric Taylor (s.s.n.#
xxx-xx-4342) of double-jeopardy-clause-elntitlements, thereby such judge's judgement
to dismiss with prejudice as accordance of the jural interest of 5 U.S.C. section 3331's
employability of preventing any claim for relief I asserted by civil-action 20-MC-00001
against such deprivation; if i can prove that the trial of Virginian Indictment# CR05-2591
being the evidence of Federal Judge Emmet G Sullivan's depriving I who being Eric
Taylor (s.s.n.# xxx-xx-4342) of double-jeopardy-clause-elntitlements?Court? (see 5
U.S.C. section 3331's stating)

5) Whether or not the authority of the law office of Supreme Court of the United States
of North America Chief-Justice John G Roberts Jr would of depriving I who being Eric
Taylor (s.s.n.# xxx-xx-4342) of double-jeopardy-clause-entitlements, if it fails to grant
this petition for a writ of certiorari into the Supreme Court of the United States of North
America pursuant rule 11 of the rules of this court; while I can prove that the SupremeCourt-of-the-United-States-of-North-America's sole purpose for denying such review
pursuant rule 11 of this court would of being for aiding 5 U.S.C. section 3331 's
employability of establishing the United-States-Distrct-Court-For-The-District-OfColumbia's ability to assert demurmur against an appellant's attempt of ceriorari
pursuant rule 10 of the rules of this court? (see Article ll-section 2-clause 2's and Article
ll-section 3's and 3 U.S.C. section 302's stating)

VS.
v. ;*

i

.J

K
&
7*

6) Whether or not the same evidence-test states that" the evidence used to validate an
alternate prosecution other than the initial prosecution after been used to commence an
initial prosecution, being prohibited of being of violation of double-jeopardy-clauseprotections, when and there because, the initial prosecution doesn't merge to being the
subsequent conviction of alternation?
7) Whether or not the fact that U.S. District Court Judge Emmet G Sullivan's asserting
that an order was issued separately the order sought of review by this writ of certiorari
being discriminative against the contractual specifications of civil-action 20-MC-00001's
titling and therefore being grounds to sustain the standard of review to being the de
novo standard? (see judgement of U.S. District Court Judge Emmet G Sullivan page 3
wholly) (also see initial pleading jurisdictional statement and subject-matter statement)

LIST OF PARTIES
[Supreme Court Of The United States Justices Ruth Bader Ginsburg; John G. Roberts;
Elena Kagan; Stephen Breyer; Samuel Alito; Sonia Sotomayor; Neil Gorsuch; Clarence
Thomas; Brett Kavanaugh] And Every United States Citizen

TABLE OF CONTENT
Opinion Below

P9-1

Jurisdiction

pg-2

Constitutional and Provisional Involved

pg.3

Statement of Case

pg.4 and 5

Reason for Granting

pg-6

Conclusion

pg-6

INDEX TO APPENDIX

APPENDIX A: Judgement of U.S. District Court Judge Emmet G Sullivan
:>
y.

APPENDIX B: Initial and Final Pleading of Civil-Action 20-MC-00001
APPENDIX C: Indictment #CR05-2591 and Sentencing of Indictment #CR05-2591
(evidence of deprivation of double-jeopardy-protection during Virginian trial)
APPENDIX D: Brief on the Merit of this Writ of Certiorari
APPENDIX E: CITATIONS OF CONSTITUTIONAL AND STATUTORY PROVISION
INVOLVED

TABLE OF AUTHORITY

{Civil-Action 20-MC-00001:
Eric Emanuel Taylor (s.s.n. xxx-xx-4343)/Plaintiff
Not Versus
President Donald Trump et al./Proponents}

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

1/
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
d

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix fa
the petition and is

*

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[JTis unpublished.

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ WFor cases from federal courts:
The date on which the United States^ Court of Appeals decided my case
was
I Cm
^Acjlncj (&ZQ - 52//
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1) 28 U.S.C. section 1331 (referenced on pgs 4 and 5, citation in appendix E)
2) 28 U.S.C. section 1343a3 and a4, and 1343b2 and b3 (referenced on pgs 4 and 5,
citation in appendix E)
3)5th amendment (referenced on pgs 4 and 5, citation in appendix E)
4)14th amendment section 1 and 2 (referenced on pgs 4 and 5, citation in appendix E)
5) Va law Code 18.2-51 (referenced on pgs 4 and 5, citation in appendix E)
6)Va law Code 19.2-225 (referenced on pgs 4 and 5, citation in appendix E)
7)5 U.S.C. section 3331 (referenced on pgs 4 and 5* citation in appendix E)
8)3*U.S!C. section 302 (referenced on pgs 4 and 5, citation in appendix E)
9)11th amendment (referenced on pgs 4 and 5, citation in appendix E)
10) Article ll-section 2-clause 2
11 )Article ll-section 3
12) Article l-section 8-clause 9
13)Article l-section 8-clause 17
14)Article III section 1
15) 1 U.S.C. section 112a

3

STATEMENT OF CASE
I who being Eric Emanuel Taylor (s.s.n. xxx-xx-4342) hereby attempting the ability of
accomplishing the redressal of the issuance of double-jeopardy-clause-entitlements
against the unconstitutionality of the original jurisdiction of the United-States-DistrictCourt-For-The-District-Of-Columbia's failing to provide for such issuance of
constitutionally-protected-entitlements as specified by the jural interest that being
Article l-section 8-clause 9's jural interest of congruency of the applicability of 5 U.S.C.
section 3331 's employability to prevent the issuances of double-jeopardy-clauseentitlements on the grounds that all governmental employability being inferior against
the the applicability of rule 45 of the rules of this court.
Thus the legality of such redressal of our ability of accomplishing the issuance of
double-jeopardy-clause-entitlements in the United States District Court For The District
Of Columbia being the fact that the United States District Court For The District Of
Columbia erroneously docketing civil-action # 20-MC-00001's claim for relief to
accomplish double-jeopardy-clause-entitlements pursuant the titling that being " Eric
Taylor/plaintiff versus President Donald Trump/defendant", despite I having a courtstamped-received copy of civil-action # 20-MC-00001's titling must have been docketed
at order of not violating the Civil-Rights-Act of 1866 of stating the following:"Eric
Taylor/plaintiff not versus President Donald Trump/proponent".
Thus on grounds of page 3 of the initial pleading known of being civil-action 20-MC00001 of the Cause of Action enumerated paragragh and the Statement of Case
enumerated pargraph stating that 28 U.S.C. section 1331 's application of federal
question against the deprivation of double-jeopardy-clause-entitlements being the
district-court's ability to redress such deprivation, and that 28 U.S.C. section 1343 being
the subject-matter-jurisdiction of claimants entitlement of monetary compensation for
award against the mental-anguish that resulting from the unconstitutionality of 5 U.S.C.
section 3331's liability of causing I to suffer because of the deprivation that resulting
from the governmental employability that be 5 U.S.C. section 3331's jural interest to
prevent the issuance of constitutionally-protected entitlements being the cause of my
mental anguish: Judge Sullivan's judgement of dismiss with prejudice being erroneous
and unconstitutional on its face thereby the proofing that such prejudice to dismiss civil
-action 20-MC-00001 being because civil-action 20-MC-00001 does not establish such
plaintiff of being versus anyone nor establish any party to being defendant.
Thus on grounds of rule 11 of this court stating that "a petition for a writ of certiorari to
review a case pending in a United States court of Appeals before judgement is entered
in that court will be granted only upon a showing that the case is of such imperative

H

public importance as to justify deviation from normal appellate practice and to require
immediate determination in this court", I who being Eric Emanuel Taylor (s.s.n. xxx-xx4342) hereby asserting that my showing of the necessary imperative public importance
required by rule 11 of this court being as follows:
SHOWING OF ASSESSMENT OF IMPERATIVE PUBLIC IMPORTANCE
1)The government has not been established of being a Defendant by the plaintiff, but
has been established of being a Proponent by the plaintiff (see title of filing of civilaction 20-MC-00001 in appendix),
2)The plaintiff has not established himself versus the government's ability to support
his claim for relief (see the titling of civil-action 20-MC-00001 in appendix)
3)Civil-Action 20-MC-00001's applicability being of regards of the sactioning of the
public rights of the constitution of the U.S. (see 28 U.S.C. section 1343a3 and a4);
And I who being Eric Emanuel Taylor (s.s.n. xxx-xx-4342) also asserting hereby that my
showing of the necessary deviation from normal appellate practice required by rule 11
of this court being as follows:
SHOWING OF ASCERTAINMENT FOR DEVIATION FROM NORMAL APPELLATE
PRACTICE
1 )The U.S. District Court changed civil-action 20-MC-00001 's title (see the titling of civilaction 20-MC-00001 in appendix)
2)Civil-Action 20-MC-00001's title originally being Eric Taylor/plaintiff not versus
President Donald Trump/proponent (see the titling of civil-action 20-MC-00001 in
appendix)
3)The U.S. Court of Appeals have exclusive jurisdiction of all case that does not qualify
the discretionary accountability required to validate the granting of certiorari into the
Supreme Court of the U.S. pursuant rule 11 of this court; but doesn't upon the
qualifications of rule 11 of this court being sustained pursuant rule 11 of this court (see
the titling of civil-action 20-MC-00001 in appendix);
And I who being Eric Emanuel Taylor (s.s.n. xxx-xx-4342) also asserting hereby that my
showing of the necessary ascertainment of the immediate determination of such issue
by this court required by rule 11 of this court being as follows:
ASCERTAINMENT OF IMMEDIATE DETERMINATION OF ISSUE BY THIS COURT

1)The Supreme Court of the United States must issue forth the determinative
assessment that certiorari pursuant rule 11 of this court supercedes the
unconstitutional change of the caption of civil-action 20-MC-00001 by the U.S. District
Court pursuant the de-novo standard of review, prior the exclusive-jurisdiction of the
United States Court Of Appeals erroneously assume that civil-action 20-MC-00001's title
stating "Eric Taylor/plaintiff versus President Donald Trump/defendant" (see the titling
of civil-action 20-MC-00001 in appendix), (see judgement of U.S. District Court Judge
Emmet G Sullivan page 3 wholly) (also see initial pleading jurisdictional statement and
subject-matter jurisdictional statement)
REASON FOR GRANTING
The reason for granting this writ for certiorari pursuant rule 11 of this court is so to
establish the legality of the jural interest of the civilian-citizen's ability to accomplish
redressal of the applicability of the assurance of the jural interest that being Article IIsection 2-clause 2's and Aricle ll-section 3's issuance of such redressal's
accomplishment pursuant rule 11 of this court against the inequity of the perpetration
of treason by U.S. District Court Judge Emmet G Sullivan, pursuant rule-11 -of-thiscourt's applicability of the de novo standard of review; and thereby providing that the
discretion-of-this-court's jural interest of construing the legality of the employability of
the de novo stardard of review issuing forth as if pursuant the justifications of the
phase "per eundem in eadem", by President Donald Trump's assessment of the
utilization of executive authority to assure double-jeopardy-clause-entitlement pursuant
application of rule 11 of this court against the jural interest of U.S. District Court Judge
Emett Sullivan's and 5 U.S.C. section 333Vs assessment of depriving U.S. citizens of
the benefits of double-jeopardy-clause-entitlements.
CONCLUSION
Finally I assert that U.S. District Court Judge Emmet G Sullivan's issuance of
judgement at congruency of the jural interest that being 5 U.S.C. section 3331 being
the causation of the deprivation of double-jeopardy-clause-entitlements during civilaction 20-MC-00001, and that I is entitled to redressal of the issuance of double­
jeopardy-clause-entitlements against the mental anguish sustained against my
assurance of the benefits of double-jeopardy-clause-entitlement: thus i respectfully
seek this court to grant this petition for a writ of certiorari into the Supreme Court of
the United States pursuant rule 11 of this court.

(o

&p
IN THE SUPREME COURT OF THE UNITED STATES
Of North America
case #
Eric Taylor (s.s.n. xxx-xx-4343)/Petitioner
Not Versus
President Donald Trump et al./ Proponents

Brief On The Merits Of Granting And Brief Of Case Of Certiorari
Issue # 1:
Double-Jeopaprdy-Clause-Protectional-Entitlement
The double-jeooardy-clause of the 5th amendment provide that a State's government
can't put a defendant to trial twice by using the same evidence to validate an alternate
prosecution when the initial prosecution can't merge to being the exactingly same
prosecution that be the alternate prosecution, unless to violate such defendant's dueprocess-clause entitlements of double-jeopardy-clause-protectional-entitlement against
any deprivation issuing forth against such federally-protected due-process of doublejeopardy-clause-protectional-entitlements.

CAUSATION Of ISSUE #1:
DEPRIVATION OF DOUBLE-JEOPARDY-CLAUSE-PROTECTIONAL-ENTITLEMENTS

Argument Of Issue # 1:
Upon the Supreme Court of the United States applying the same evidence test pursuant
federal question 1-7 about the trial of indictment #CR05-2591 the court will see that the
deprivation of double-jeopardy-clause-entitlement issued forth by the conviction of the
class 6 felony lacking any proof of the commencement of a class 6 felony; and
therefore proves that United States District Court Judge Emmet Sullivan's judgement to
dismiss with prejudice a claim for relief against deprivation of double-jeopardy-clauseentitlement, being frivolous and unconstitutional on its face, by grounds that such

judgement issuing fraudulently pursuant the forged caption of "Eric Taylor/Plaintiff
versus President Donald Trump et al/Defendant"; and thus certiorari for the applicability
of rule 11 of this court being necessary for the attainment of the issuance of doublejeopardy-clause-protectional-entitlement against the jural interest of 5 U.S.C. section
3331 's domestic and the jural interest of any foreign-countries allegiance of the jural
interest of 5 U.S.C. section 3331 's duty of preventing the issuances of United-Statesly
protected entitlement by regards of its applicability pursuant 28 U.S.C. section 453 and
1 U.S.C. section 112a.

Statement of Case of Issue # 1:

>.
*

.
r
«

On January 17th-2020 the United States District Court For The District Of Columbia
violating my right to contract the caption of civil-action 20-MC-00001, when it changed
the caption of civil-action 20-MC-00001 from "Eric Taylor/Plaintiff Not Versus President
Donald Trump et al/Proponents" to "Eric Taylor/Plaintiff versus President Donald Trump
et al/Defendant, perhaps for aiding the insurrectional and rebellional behavior of foreign
states citizenry here within the territory that being the U.S. and there outside the territory
that not being the U.S., against the United-Stately protected entitlements of U.S.
citizenry. Thus I seek redress of the deprivation of double-jeopardy-clause-protectional
entitlement, on grounds that the evidence used to validate the class 6 felony conviction
that being the sentencing order of Virginian indictment# CR05-2591, could not be the
' same evidence used to commence the class 3 felony accusative that being Virginian
Indictment# CR05-2591, unless to put I to trial twice for the same offense despite the
difference of offense, thereby the fact that the initial trial's session to prosecute the
class 3 felony accusative doesn't merge to being the subsequent class 6 felony
conviction: and therefore providing that double-clause-protectional-enetitlement by the
authority that being the 5th amendment's double-jeopardy-clause, would've prohibited
the subsequent class 6 felony conviction, on grounds that failure of such prohibition
would put such defendant to trial twice for the same despite the difference of offence;
thereby the usage of the same evidence to validate the acquittal and conviction.

Conclusion Of Judgement Sought Against The Cause Of Issue # 1
Thereby the fact of U.S.-District-Court-Judge Emett Sullivan asserting that an order
would be issued separate the judgement sent to me to conclude civil-action 20-MC00001 {(see judgement of civil-action 20-MC-00001 pg 3 wholly)}, the United States
Supreme Court should'grant this writ of certiorari pursuant rule 11 of this court, so for

preventing U.S.-District-Court-Judge Emmet Sullivan of delegating the jural interest that
being 5 U.S.C. section 3331 at regards of the-United-States-Court-Of-Appeals-For-TheDistrict-Of-Columbia having exclusive jurisdiction to decide final judgements against the
jural interest that being 3 U.S.C. section 302 except in the case such review being
capable pursuant rule 11 of this court.

Issue # 2:
Rule 11 of the Rules of the Supreme Court Of The United States

CAUSATION OF ISSUE # 2
TheUnited States Congress depriving U.S. citizens of Presidentially protected
entitlements pursuant the following oath of office being of opposition against the U.S.
District Court For The District Of Columbia issuing such Presidentially protected
entitlements:

'
■'

' ■

/-

•

f •'

(5 U.S.C. section 3331): An individual, except the President, elected or appointed to an
office of honor or profit in the civil service or uniformed services, shall take the
following oath: Them, AB, do solemnly swear (or affirm) that them will support and
defend the Constitution of the United States against all enemies, foreign and domestic;
that them will bear true faith and allegiance to the same; that them take this obligation
freely, without any mental reservation or purpose of evasion; and that them will well and
faithfully discharge the duties of the office on which them am about to enter.

Argument Of Issue # 2:
The practicability of the United States 116th Congressional-Assembly's abilities to
evidence the fact that they adhering to the Article l-section 8- clause 18's abilities of
making all Laws which shall be necessary and proper for carrying into Execution the
foregoing Powers, and all other Powers vested by this Constitution in the Government of
the United States, or in any Department or Offi cer thereof; for unconstitutionally
constituting tribunals inferior of the Supreme Court of the United States, would prove of
being inequitable and unlawful, when the congressional oath of office being as follows:
(5 U.S.C. section 3331): An individual, except the President, elected or appointed to an
office of honor or profit in the civil service or uniformed services, shall take the

following oath: Them, AB, do solemnly swear (or affirm) that them will support and
defend the Constitution of the United States against all enemies, foreign and domestic; ,
that them will bear true faith and allegiance to the same; that them take this obligation
freely, without any mental reservation or purpose of evasion; and that them will well and
faithfully discharge the duties of the office on which them am about to enter.

Statement of Case of Issue # 2:

■••i

*
.

Section 4 of the 14th amendment provide the Supreme Court of the United States must
of hold the judgement of U.S.-District-Court-Judge Emmet G Sullivan illegal and void
pursuant the United-States-Supreme-Court's congruency of the jural interest that being
3 U.S.C. section 302's authorization of the authority vest of President Donald Trump to
protect and perserve and fend the Presidentially protected jural interest that being the
amendments of the United States Constitution, at accordance of rule 45 of the rules of
this court; on grounds that section 1 of the 14th amendment provide that the existing
congressional oath of office that being 5 U.S.C. section 3331 abridging my entitlement
of having the United States District Court For The District Of Columbia issue double­
jeopardy-clause protection and remedy against deprivation of double-jeopardy-clauseprotectional-entitlement: thereby the authority vest of 5 U.S.C. section 3331 by Article Isection 8-clause 9. Thus must the Supreme Court of the United States remedy such
depriving of double-jeopardy-clause protection.

Conclusion Of Judgement Sought Against The Cause Of Issue # 2:
Thereby the fact Article l-Section 8-Clause 9’s asserting that the U.S. Congress's jural
interest that being 5 U.S.C. section 3331 constituting tribunals inferior of the Supreme
Court of the U.S., while Article l-section 8- clause 18 asserting that Congress having
power for making all Laws which shall be necessary and proper for carrying into
Execution the foregoing Powers, and all other Powers vested by this Constitution in the
Government of the United States, or in any Department or Offi cer thereof, and while 5
U.S.C. section 3331 failing to assert that Congress will perform their duties, proves the
untruthfulness of United States District Judge Emmet G Sullivan's asserting I failed to
establish federal jurisdiction or state a claim for relief, as i assert 28 U.S.C. section 1331
of being the jurisdictional statement and 28 U S.C. section 1341 b2 and b3 of being
subject-matter jurisdiction at congruency of compensatory damages for relief of mental
anguish. (see the Jurisdictional Statement and Suject-Matter-Jurisdiction section of
civil-action 20-MC-00001 in appendix)

Thus must this court overturn the judgement of the lower court pursuant rule 11 of this
court on grounds that "the practicability of the United States 116th CongressionalAssembly's abilities to evidence the fact that they adhering to the Article l-section 8clause 18’s abilities of making all Laws which shall be necessary and proper for carrying
into Execution the foregoing Powers, and all other Powers vested by this Constitution in
the Government pf the United States, or in any Department or Offi cer thereof; for
constitutionally constituting tribunals inferior of the Supreme Court of the United States,
would prove of being equitable and lawful, when the congressional oath of office being
as follows, so to prevent the establishment of slavery against my freedom by U.S.
District Court Judge Emmet G Sullivan or any other person other the plaintiff of civilaction 20-MC-00001 benefiting of the filing that being civil-action 20-MC-00001 while
such plaintiffs claim having been dismissed with prejudice:
(5 U.S.C. section 3331): An individual, including the President, elected or appointed to an
office of honor or profit in the civil service or uniformed services, shall take the
following oath: Them, AB, do solemnly swear (or affirm) that them will support and
defend the Constitution of the United States against all enemies, foreign and domestic;
• that them will bear true faith and allegiance to the same; that them take this obligation
freely, without any mental reservation or purpose of evasion; and that them will well and
faithfully perform the duties of the office on which them am about to enter.

Issue # 3:
11th amendment

CAUSATION OF ISSUE # 3
The United States Congress has made and established 5 U S.C. 3331 as a jural interest
to deprive U S. citizens of their constitutionally and presidential^ protected entitlements
at violation of section 1 of the 14th amendment's asserting "no State shall make or
enforce any law which shall abridge the privileges and immunities of U.S. citizens"; while
United States District Court Judge Emmet G Sullivan has enforced the jural interest that
being 5 U.S.C. section 3331, when he dismissed with prejudice a claim for relief of
double-jeopardy-clause-protectional-entitlements during the trial of civil-action 20-MC00001.
Argument Of Issue # 3

' a;

The 11 th amendment exquisitely asserts that" the judicial power of the United States
shall not be construed to extend to any suit in law or equity, commenced or prosecuted
against one of the United States by citizens of another State, or citizens or subjects of a
foreign State"; and thereby providing pursuant the applicability of 28 U.S.C. section
1343b1's asserting that "For purposes of this section—the District of Columbia shall be
considered to be a State" and 28 U.S.C. section 1343b2's asserting that "any Act of
Congress applicable exclusively to the District of Columbia shall be considered to be a
statute of the District of Columbia", prevents the Supreme Court of the United States of
denying this petition for a writ of certiorari pursuant rule 11 of this court, on grounds
that the judicial power of the United States doesn't extend of being the jural interest that
being 5 U.S.C. 3331's duty of preventing the issuances of United-Statesly protected
entitlements on the grounds of the subject-matter of fact that the judgement render by
United States District Court Judge Emmet G Sullivan being of congruency of the duty of
preventing the issuances of United-Statesly protected entitlements; and evidenced
thereby the subject-matter of fact that United States District Court Judge Emmet G
Sullivan's judgement untruthfully asserts that I never established federal jurisdiction
despite the jurisdictional statement enumeration column of civil-action 20-MC-00001
specifying that 28 U.S.C. section 1331 (federal questions) being the jurisdictional
statement; and further evidenced thereby the subject-matter of fact that United States
District Court Judge Emmet G Sullivan's judgement untruthfully asserts that I never
asserted a claim upon which relief could be granted, despite the subject-matter
jurisdiction enumeration column and the statement of case enumeration column of civil
-action 20-MC-00001 specifying 28 U.S.C. section 1343a1 and a2 being a statement
upon which relief can be granted, and that mental anguish was that which relief need be
granted about, and that deprivation of double-jeopardy-clause-protectional-entitlements
being the causation of such mental anguish; and that the relief sought being the
monetary amount that being the zillion American dollars as compensatory damages.
Thus providing that the commenced judgement of United States District Court Judge
Emmet G Sullivan of "dismissal with prejudice" can't withstand against the applicability
of rule 11 of the rule of this Court, on grounds that such a judgement establish such
person that rendered such judgement to being of the jural interest of a citizen of
another State other than one within the union that being the United States, or that such
a judgement establish such person that rendered such judgement to being of the jural
interest of a citizen or subject of a foreign State.
Statement of Case of Issue #3:
The 11th amendment exquisitely state that "the Judicial power of the United States
shall not be construed to extend to any suit in law or equity, commenced or prosecuted

against one of the United States by Citizens of another State, or by Citizens or Subjects
of any Foreign State", and thereon providing for the legality of the grounds of a U.S.
citizen's ability to effectively utilize rule 11 of this court for certiorari, for establishing
their allegiance of the jural interest of the territory of those that issuing the UnitedStatesly protected entitlements to all United States citizens, against the jural interest
that being 5 U.S.C. section 3331's duty to prevent such issuances: and thereby
establishing my right of appeal pursuant rule 11 of this court on grounds of rule 45 of
this court stating that "All process of this Court issues in the name of the Presi dent of
the United States", who never have accepted the jural interest that being 5 U.S.C. section
3331; and thereby proofing the President's and plaintiff's and proponents's of civilaction 20-MC-00001's immunity against deprivation of United-Statesly protected
entitlements pursuant rule 11 of this court, on grounds that the jural interest that being
5 U S.C. section 3331, being the citizenry of another State than the citizenry that the
United States, or being the citizenry of a foreign-state. And therefore providing the
legality of the de-novo standard of review pursuant rule 11 of this court, at accordance
•of tfie application of 3 U.S.C. section 302.
'-.’i

Conclusion Of Judgement Sought Against The Cause Of Issue # 3:

‘

. ,r
ri *

Virginia law code 19.2-225 exquisitely states that" where an intent to injure, defraud or
cheat is required to constitute an offense, it shall be sufficient, in an indictment or
accusation therefor, to allege generally an intent to injure, defraud or cheat without
naming the person intended to be injured, defrauded or cheated; and it shall be
sufficient, and not be deemed a variance, if there appear to be an intent to injure,
defraud or cheat the United States, or any state, or any county, corporation, officer or
person", and thus such statement being of congruency of the double-jeopardy clause of
the 5th amendment; and therefore provide for the illegality of the Supreme Court of the
U.S. to deny certiorari pursuant rule 11 of this court; on grounds that United States
District Court Judge Emmet G Sullivan’s judgement to dismiss with prejudice a claim for
relief against deprivation of double-jeopardy-clause-protectional-entitlements, not
having the ability to withstand the 11th amendment entitlement against Emmet G
Sullivan's requisitional burden of proofing the validation that his judgement being of
congruency of 3 U.S.C. section 302.
Issue # 4:
Procedural due-process of 5th and 14th amendment

CAUSATION OF ISSUE #4:

section 3331 that would unmistakably be construed of being an international agreement
at favor of the United States citizenry's specifications of equity at law of the citizenry of
the territory that being the United States of North America, would provide that 5 U.S.C.
state the following:
(5 U.S.C. section 3331): An individual, including the President, elected or appointed to an
office of honor or profit in the civil service or uniformed services, shall take the
following oath: Them, AB, do solemnly swear (or affirm) that them will support and
defend the Constitution of the United States against all enemies, foreign and domestic;
that them will bear true faith and allegiance to the same; that them take this obligation
freely, without any mental reservation or purpose of evasion; and that them will well and
faithfully perform the duties of the office on which them am about to enter.

Conclusion Of Judgement Sought Against The Cause Of Issue # 4:
Virginia law code 18.2-51 exquisitely states that" if any person maliciously shoot, stab,
cut, or wound any person or by any means cause him bodily injury, with the intent to
maim, disfigure, disable, or kill, he shall, except where it is otherwise provided, be guilty
of a Class 3 felony: If such act be done unlawfully but not maliciously, with the intent
aforesaid, the offender shall be guilty of a Class 6 felony", for being the evidence and
proofing that the Supreme Court of the U.S. being the only where within meaning of the
11th amendment's congruency of 3 U.S.C. section 302's authorization of the utilizations
of rule 11 of this court, against the judgement of the jural interest that being 5 U.S.C.
section 3331's ability to deprive U.S. citizens of Presidentially-protected entitlements;
and therefor establishing United States District Court Judge Emmet G Sullivan's
judgement to dismiss with prejudice civil-action 20-MC-00001, not being of the
authorization of United States citizenry, at congruency of accordance of 1 U.S.C. section
112b's jural interest of establishing the territory that being the United States, to not
being the territory that being the United States pursuant the jural interest that being 5 U
S.C. section 3331: and thus providing that rule 11 of this court being the only means to
counteract such deprivation.
Thus on grounds of 1 U.S. Code § 112a (United States Treaties and Other International
Agreements; contents; admissibility in evidence) stating that "the said United States
Treaties and Other International Agreements shall be legal evidence of the treaties,
international agreements other than treaties and proclamations by the President of
such treaties and agreements, therein contained, in all the courts of the United States

and the several States and the Territories and insular possessions of the United States",
28 U.S.C. section 453 must of being admissible evidence of an international agreement
between the President of the United States, and the 116th congress and every federal
judge of an inferior court against the Supreme Court of the United States: againt the
116th Congress constituting such tribunal pursuant the jural interest that being 5 U S.C.
3331; and therefore providing for the viability of this petition for a writ of certiorari in the
Supreme of the United States of North America at being evidence of my allegiance of
the issuance of the proclamation of Presidentially-Protected entitlements, thereby the
proofing of sustaining the rule 11 requisitional requirements; against the United States
District Court Judge Emmet G Sullivan's attempt at establishing civil-action 20-MC00001 of being of the allegiance that the jural interest that being 5 U.S.C. 3331.

1) 28 U.S.C. section 1331
The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.
2) 28 U.S.C. section 1343a3 and a4, and 1343b2 and b3
(a)The district courts shall have original jurisdiction of any civil action authorized by law
to be commenced by any person:
(3) To redress the deprivation, under color of any State law, statute, ordinance, regulation,
custom or usage, of any right, privilege or immunity secured by the Constitution of the
United States or by any Act of Congress providing for equal rights of citizens or of all
persons within the jurisdiction of the United States;
‘.V,

(4) To recover damages or to secure equitable or other relief under any Act of Congress
providing for the protection of civil rights, including the right to vote.
(b)For purposes of this section—
(1 )the District of Columbia shall be considered to be a State; and
(2)any Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
3)5th amendment
No person shall be held to answer for a capital, or otherwise infamous crime, unless on
a presentment or indictment of a Grand Jury, except in cases arising in the land or naval
forces, or in the Militia, when in actual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation.
4)14th amendment section 1 and 4 and 5
section 1: All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

section 4: The validity of the public debt of the United States, authorized by law,
including debts incurred for payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be questioned. But neither the United
States nor any State shall assume or pay any debt or obligation incurred in aid of
insurrection or rebellion against the United States, or any claim for the loss or
emancipation of any slave; but all such debts, obligations and claims shall be held
illegal and void.

section 5; The Congress shall have power to enforce, by appropriate legislation, the
provisions of this article.

5) Va law Code 18.2-51
If any person maliciously shoot, stab, cut, or wound any person or by any means cause
him bodily injury, with the intent to maim, disfigure, disable, or kill, he shall, except where
it is otherwise provided, be guilty of a Class 3 felony. If such act be done unlawfully but
not maliciously, with the intent aforesaid, the offender shall be guilty of a Class 6 felony.
6)Va law Code 19.2-225
Where an intent to injure, defraud or cheat is required to constitute an offense, it shall
be sufficient, in an indictment or accusation therefor, to allege generally an intent to
injure, defraud or cheat without naming the person intended to be injured, defrauded or
cheated; and it shall be sufficient, and not be deemed a variance, if there appear to be
an intent to injure, defraud or cheat the United States, or any state, or any county,
corporation, officer or person.
7)Va law code 18.2-1 Oc and 18.2-1 Of
c): For Class 3 felonies, a term of imprisonment of not less than five years nor more
than 20 years and, subject to subdivision (g), a fine of not more than $100,000.
f) For Class 6 felonies, a term of imprisonment of not less than one year nor more than
five years, or in the discretion of the jury or the court trying the case without a jury,
confinement in jail for not more than 12 months and a fine of not more than $2,500,
either or both.
8)5 U.S.C. section 3331

An individual, except the President, elected or appointed to an office of honor or profit in
the civil service or uniformed services, shall take the following oath: "I, AB, do solemnly
swear (or affirm) that I will support and defend the Constitution of the United States
against all enemies, foreign and domestic; that I will bear true faith and allegiance to the
same; that I take this obligation freely, without any mental reservation or purpose of
evasion; and that I will well and faithfully discharge the duties of the office on which I
am about to enter. So help me God." This section does not affect other oaths required
by law.

9)3 U.S.C. section 302

••i,

The authority conferred by this chapter shall apply to any function vested in the
President by law if such law does not affirmatively prohibit delegation of the
performance of such function as herein provided for, or specifically designate the
officer or officers to whom it may be delegated. This chapter shall not be deemed to
limit or derogate from any existing or inherent right of the President to delegate the
performance of functions vested in him by law, and nothing herein shall be deemed to
require express authorization in any case in which such an official would be presumed
in law to have acted by authority or direction of the President.
10)11th amendment
The Judicial power of the United States shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign State.
11) Article ll-section 2-clause 2
2: He shall have Power, by and with the Advice and Consent of the Senate, to make
Treaties, provided two thirds of the Senators present concur; and he shall nominate, and
by and with the Advice and Consent of the Senate, shall appoint Ambassadors, other
public Ministers and Consuls, Judges of the supreme Court, and all other Officers of the
United States, whose Appointments are not herein otherwise provided for, and which
shall be established by Law: but the Congress may by Law vest the Appointment of
such inferior Officers, as they think proper, in the President alone, in the Courts of Law,
or in the Heads of Departments.

12)Article ll-section 3

He shall from time to time give to the Congress Information of the State of the Union,
and recommend to their Consideration such Measures as he shall judge necessary and
expedient; he may, on extraordinary Occasions, convene both Houses, or either of them,
and in Case of Disagreement between them, with Respect to the Time of Adjournment,
he may adjourn them to such Time as he shall think proper; he shall receive
Ambassadors and other public Ministers; he shall take Care that the Laws be faithfully
executed, and shall Commission all the Officers of the United States.

13) Article l-section 8-clause 9
Congress shall have power: To constitute Tribunals inferior to the supreme Court.

14)Article l-section 8-clause 18
Congress shall have power: To make all Laws which shall be necessary and proper for
carrying into Execution the foregoing Powers, and all other Powers vested by this
Constitution in the Government of the United States, or in any Department or Officer
thereof.

15)Article III section 1
The judicial Power of the United States, shall be vested in one supreme Court, and in
such inferior Courts as the Congress may from time to time ordain and establish. The
Judges, both of the supreme and inferior Courts, shall hold their Offices during good
Behaviour, and shall, at stated Times, receive for their Services, a Compensation, which
shall not be diminished during their Continuance in Office.
16) 1 U.S.C. section 112a
(a)The Secretary of State shall cause to be compiled, edited, indexed, and published,
beginning as of January 1,1950, a compilation entitled "United States Treaties and
Other International Agreements,” which shall contain all treaties to which the United
States is a party that have been proclaimed during each calendar year, and all
international agreements other than treaties to which the United States is a party that
have been signed, proclaimed, or with reference to which any other final formality has
been executed, during each calendar year. The said United States Treaties and Other
International Agreements shall be legal evidence of the treaties, international

agreements other than treaties, and proclamations by the President of such treaties
and agreements, therein contained, in all the courts of the United States, the several
States, and the Territories and insular possessions of the United States.

4

j

